      Department of Homeland Security




           Review of U.S. Immigration and Customs 

       Enforcement’s Reporting of FY 2012 Drug Control 

                Performance Summary Report





OIG-13-32                                      January 2013

                          D.FHCE OF INSPECTOR GEJ'IIERAL
                                             Homeland S""urily




                                  JAN 9, 9 2013
MEMORANDUM FOR'               R~dha Sekar
                              Actin g Executive Associate Director
                              Management and Administration
                              U.S. Immigration and Customs fnforcement

FROM:                         Anne L. Richards     ~.t~·
                                                  d ...
                              A"i~tant Inspector Genera I for Aud its


SUBJECT:                      Review of u.s. Immigration and Customs Enforcement's
                              Reporting of FY 2012 Drug Contral Performonce Summory
                              Report

Attached for your information is our final report, Review of u.s, Immigration and
Customs fnfarcl"ment's Reporting of FY 2012 Drug Control Performance Summary
Report. U.S. Immigration ~nd Customs Enforcement's management prepared the
Performance Summary Report and management assertions to comply with the
req uirements ofthe Office of National Drug Control Pol iCy Circula r, Drug Control
Accounting, dated May 1, 2007.

We contracted with the independent publk: accounting firm KPMG U P to perform the
review. KPMG U P is responsib le for the attached independent accountants' report,
dated J~nuary 22, 2013, and the condu<ion~ expre~~ed In it. We do not express an
opinion on the Perform.""e Summary Report or management's assertions. This report
contains no recommendations.

Comistent with au r responsibility under the Inspector General Act, we are pmvidi ng
copies of our report to appropriate congres5ional committee5 with oYe"ight and
JPProp riation re<ponsibil ity ove r the Department of Homeland Security. We will pmt
the report on our web<ite for public dissem ination,

Please call me wit h ~nv question~, or you r staff may contact Mark Bell, Deputy AssistJnt
Inspector General for Audits, at 11011 254·4100.

Attachment
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




                                     Independent Accountants’ Report



Deputy Inspector General
U.S. Department of Homeland Security:

We have reviewed the accompanying Performance Summary Report of the U.S. Department of Homeland
Security’s (DHS) Immigration and Customs Enforcement (ICE) for the year ended September 30, 2012.
We have also reviewed the accompanying management’s assertions for the year ended September 30,
2012. ICE’s management is responsible for the Performance Summary Report and the assertions.

Our review was conducted in accordance with attestation standards established by the American Institute
of Certified Public Accountants, and applicable standards contained in Government Auditing Standards,
issued by the Comptroller General of the United States. A review is substantially less in scope than an
examination, the objective of which is the expression of an opinion on the Performance Summary Report
and management’s assertions. Accordingly, we do not express such an opinion.

Management of ICE prepared the Performance Summary Report and management’s assertions to comply
with the requirements of the Office of National Drug Control Policy (ONDCP) Circular, Drug Control
Accounting, dated May 1, 2007 (the Circular).

Based on our review, nothing came to our attention that caused us to believe that (1) the Performance
Summary Report for the year ended September 30, 2012, is not presented, in all material respects, in
conformity with the Circular, or that (2) management’s assertions referred to above are not fairly stated, in
all material respects, based on the criteria set forth in the Circular.

This report is intended solely for the information and use of management of DHS and ICE, the DHS
Inspector General, the ONDCP, and the U.S. Congress, and is not intended to be and should not be used
by anyone other than these specified parties.




January 22, 2013




                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
                                                                   Office a/ fhe e llie/Financial Officer

                                                                   U.S. Department of Homeland Security
                                                                   500 12th Street, SW
                                                                   Washington, D.C. 205 36


                                                                   u.s. Immigration
                                                                   and Customs
                                                                   Enforcement
January 22, 201 3

Ms. Anne L. Ri chards
Assistant Inspector Genera l for Audi t
U.S. Department o f Homeland Security
Office of the Inspector General
1120 Vennont Avenue N W, 10 th F loor
Washington, DC 20005

Dear Ms. Richards,

In acco rdance with the Office of Nati onal Drug Contro l Po li cy circular, Drug Contro l
Accounting, dated May 1,2007, enclosed is Immigration and Customs Enfo rcement 's report of
FY 20 12 drug perfo rmance metrics and targets.

If you require further assistance on this info rmation, please contact Jamie Sturgis at (202) 732-
6 188 .

                                Sincerely,




                               v
                                   /~
                                Andrew McIlroy
                                Deputy Director, Offi ce of Budget and Program Perfo rmance
                                U.S. Immigration and Customs Enforcement




                                                                   www.ice.gov
                              U.S. Department of Homeland Security
                            U.S. Immigration and Customs Enforcement

              Performance Summary Report of Drug Control Funds during FY 2012
                                   International Affairs

Metric 1: Percentage of overseas investigative hours spent on drug-related cases.

             FY 2008     FY 2009     FY 2010     FY 2011     FY 2012     FY 2012    FY 2013
              Actual      Actual      Actual      Actual      Target      Actual     Target
               4.4%        3.8%        4.9%        6.3%        5.0%        6.3%        6.3%

(1) Description
The outcome metric for International Affairs as a whole is the percentage of overseas investigative 

hours spent on drug related cases. This metric evaluates the percentage of ICE’s overall overseas 

investigations that impact counter-narcotics enforcement.


International Affairs supports U.S. drug control policy, specifically Office of National Drug Control

Policy (ONDCP) initiatives such as the National Counter Narcotics Strategy, Southwest Border 

Counter Narcotics Strategy and Northern Border Counter Narcotics Strategy, by building international 

partnerships to detect, disrupt and dismantle smuggling organizations. Increased hours spent on drug

related cases directly leads to increased detection, disruption and dismantlement of drug smuggling and 

money laundering organizations. International Affairs investigative resources are directed at

organizations smuggling contraband (including narcotics) into the United States. International Affairs 

partners with domestic ICE components and with U.S. law enforcement agencies overseas to leverage 

overseas resources mitigating global narcotics threats to the U.S. This includes utilizing investigative 

and intelligence techniques to support domestic cases and interagency cross-border initiatives. 


This counter-narcotics performance metric is evaluated on a consistent basis for International Affairs.

It is, in some cases, put into Senior Executive Service (SES) performance plans, and is also tracked at a 

high managerial level by way of processes such as Homeland Security Investigations (HSI) Trak, ICE 

Trak, programmatic monitoring, financial monitoring and quarterly expenditure reports.


(2) FY 2012 actual performance results

In FY 2012, 6.3% of overseas investigative case hours were spent on drug related cases, exceeding the
target of 5.0%. The percentage of overseas investigative hours spent on drug related cases is derived
by dividing the drug related case hours by the total investigative case hours of overseas agents.

(3) The performance target for FY 2013

The performance target for FY 2013 is 6.3%. The 6.3% target is based on the prior year actual results.
In establishing this metric, International Affairs plans to have sufficient resources to support the same
level of effort on drug related investigations.

(4) Quality of Performance Data
                                                -2-
The database used to obtain International Affairs performance data is the TECS, which is ICE’s
automated case management system that records investigative hours. International Affairs relies on the
TECS system to ensure the performance data is accurate, complete, and unbiased in presentation and
substance. ICE conducts quality control verification on all data received through the TECS to ensure
the performance data are accurate, complete, and unbiased in presentation and substance.
                                                  -3-

              Performance Summary Report of Drug Control Funds during FY 2012
                                           Intelligence

Metric 1: Number of counter-narcotics intelligence requests satisfied.

             FY 2008     FY 2009     FY 2010     FY 2011    FY 2012     FY 2012     FY 2013
              Actual      Actual      Actual      Actual     Target      Actual      Target
                  82       1,969       338        2,721       3,500        552         560

(1) Description

Intelligence supports its customers by satisfying their intelligence requirements – providing products
and services that inform customers and close existing “intelligence gaps.” Customer requirements are
formally documented and captured within the Intelligence Information Management System (IIMS).
Levied requirements are then either “satisfied” by Intelligence, or not. In the latter case, an
intelligence gap remains. Satisfaction of customer requirements represents the “outcome” of
Intelligence production in that satisfying customer requirements closes the gap in their information
needs and allows customers to make informed decisions about executing law enforcement actions.

This counter-narcotics performance metric is evaluated on a consistent basis for Intelligence, and is in
some cases put into SES performance plans, but is also tracked at a high managerial level via such
processes as HSI Trak, ICE Trak, programmatic monitoring, financial monitoring and quarterly
expenditure reports.

(2) FY 2012 actual performance results

In FY 2012, Intelligence accounted for 552 satisfied requests, as reported in the IIMS. The FY 2012
target of 3,500 satisfied requests was not met.

In FY 2012, ICE revised the process and criteria for designating Requests for Information (RFI) to
align with the DHS Intelligence Enterprise Policy Directive 8310 (DHS PD8310). The decision to
revise the process was unrelated to ONDCP reporting, but implemented to obtain more accurate data in
compliance with DHS PD8310. As a result, a narrower scope of intelligence products meet the revised
criteria for RFI and fewer RFI are recorded in IIMS.

(3) Performance Target for FY 2013

The performance target for FY 2013 is 560 counter narcotics intelligence requests satisfied. The target
is based on the prior year actual data. ICE Intelligence is examining other ways to create more robust
performance measures in the area of drug enforcement, to include intelligence production metrics
based on drug related intelligence hours recorded in TECs. ICE recommends replacement of the
current measure and target and will coordinate with ONDCP to identify and establish a new metric and
performance target in FY 2013.


(4) Quality of Performance Data
                                                 -4-
The database used to validate Intelligence’s performance data is the IIMS. Intelligence conducts
quality control verification on the IIMS data to ensure the performance data are accurate and unbiased
in presentation and substance.
                                                  -5-



                                            Domestic Investigations

Metric 1: Percentage of significant high-risk transnational criminal investigations that result in
a disruption or dismantlement.

             FY 2012     FY 2012     FY 2013
              Target      Actual      Target
              16.0%       18.0%       18.0%


(1) Description

ICE coordinated with the Office of National Drug Control Policy (ONDCP) and established new
performance metrics in FY 2012 to better indicate the success of counter-narcotics enforcement across
all investigative areas. These new metrics support the National Counter Narcotics Strategy objectives
and initiatives to disrupt and dismantle transnational and domestic drug trafficking and money
laundering organizations. The new performance metric is “the percentage of significant high risk
transnational criminal investigations that result in a disruption or dismantlement.” Agents submit
enforcement actions that meet the definition of either a disruption or dismantlement, which are cases
deemed significant or high risk based on a pre-defined set of criteria reviewed by a Significant Case
Review (SCR) panel. The SCR panel reviews enforcement actions and examines each submission to
ensure that it meets the requirement of a disruption or dismantlement. A disruption is defined as
actions taken in furtherance of the investigation that impede the normal and effective operation of the
target organization or targeted criminal activity. Dismantlement is defined as destroying the target
organization’s leadership, network, and financial base to the point that the organization is incapable of
reconstituting itself.

This new performance metric replaced a previous Domestic Investigations counter-narcotics
performance metric in FY 2012. ICE does not have performance data for this new metric prior to FY
2012 and ICE is unable to report prior year performance results as required in ONDCP Circular: Drug
Control Accounting dated May 1, 2007.

(2) FY 2012 actual performance results

In FY 2012, 18.0% of significant high-risk transnational criminal investigations resulted in a disruption
or dismantlement and exceeded the FY 2012 target of 16.0%.

(3) Performance target for FY 2013

The performance target for FY 2013 is 18.0%. The target is based upon the actual data in FY2012.
As more data is gathered with the new metric, the target will be based on an average of actual
performance results for three consecutive years. In establishing this metric, Domestic Investigations
plans to have sufficient resources to support the same level of effort on drug related investigations.

(4) Quality of Performance Data
                                                    - 6 -

The database used to validate Domestic Investigations performance data is TECS. Domestic
Investigations relies on the TECS system to ensure the performance data are accurate, complete, and
unbiased in presentation and substance. Domestic Investigations conducts quality control verification
on all data received through TECS to ensure the performance data are accurate, complete, and unbiased
in presentation and substance.

Metric 2: Percentage of significant high-risk drug related illicit trade and illicit travel and
finance investigations that result in a disruption or dismantlement.

             FY 2012     FY 2012      FY 2013
              Target      Actual       Target
               11.0%       12.0%       12.0%


(1) Description

ICE coordinated with the Office of National Drug Control Policy (ONDCP) and established new
performance metrics in FY 2012 to better indicate the success of counter-narcotics enforcement across
all investigative areas. ICE supported ONDCP initiatives that include the National Counter Narcotics
Strategy objectives such as disrupting and dismantling transnational and domestic drug trafficking and
money laundering organizations. The new performance metric is “the percentage of significant high
risk drug related illicit trade and illicit travel and finance investigations that result in a disruption or
dismantlement.” Agents submit enforcement actions that meet the definition of either a disruption or
dismantlement, which are cases deemed high impact or high risk based on a pre-defined set of criteria
and are reviewed by a Significant Case Review (SCR) panel. The SCR panel reviews enforcement
actions and examines each submission to ensure that it meets the requirement of a disruption or a
dismantlement. A disruption is defined as actions taken in furtherance of the investigation that impede
the normal and effective operation of the target organization or targeted criminal activity.
Dismantlement is defined as destroying the target organization’s leadership, network, and financial
base to the point that the organization is incapable of reconstituting itself.

This new performance metric replaced a previous Domestic Investigations counter-narcotics
performance metric in FY 2012. ICE does not have performance data for years prior to FY 2012 and is
unable to report four years of performance data as required by the ONDCP Circular 7.a. (2).

(2) FY 2012 actual performance results

In FY 2012, 12.0% of significant high-risk drug related illicit trade and illicit travel and finance
investigations resulted in a disruption or dismantlement. Thus, the FY 2012 target of 11.0% was met.

(3) Performance target for FY 2013

The performance target for FY 2013 is 12.0%. The target is based upon the actual data in FY 2012. As
more data is gathered with the new metric, the target will be based upon an average of three prior years
of performance results. Domestic Investigations has taken proactive steps, including the use of the
Significant Case Report Module in the TECS, to enhance its management practices to better allocate
investigative resources.
                                                 - 7 -

(4) Quality of Performance Data

The database used to validate Domestic Investigations performance data is the TECS. Domestic
Investigations relies on the TECS system to ensure the performance data are accurate, complete, and
unbiased in presentation and substance. Domestic Investigations conducts quality control verification
on all data received through the TECS to ensure the performance data are accurate, complete, and
unbiased in presentation and substance.
                                                - 8 -


ICE Management Assertion Report

Management Assertions

   1. Performance reporting system is appropriate and applied.
      ICE uses the TECS and IIMS investigative and intelligence case tracking systems of record to
      capture performance information. The TECS and IIMS data is well documented, accurately
      maintained, and reliable, and those systems were properly applied to generate the most recent
      performance data available for the FY 2012 performance period

   2. Explanations for not meeting performance targets are reasonable.
      In FY 2012, ICE provided reasonable explanations for established performance targets that
      were not met. ICE recommends developing a new performance metric and target in FY 2013
      for Intelligence based on Intelligence TECS hours, and ICE will coordinate to obtain ONDCP
      approval of the new measure and target.


   3. Methodology to establish performance targets is reasonable and applied.
      The methodology described above to establish performance targets for FY 2013 is reasonable
      given past performance and available resources

   4. Adequate performance metrics exist for all significant drug control activities.
      ICE has established more than one acceptable performance metric for its Drug Control
      Decision Unit—Salaries and Expense. These measures were developed in consideration and
      support of the ONDCP National Counter Narcotics Strategy as well as DHS and ICE Strategic
      plan objectives and initiatives.
                                                     -9-
                         Exhibit 1: Additional Drug Enforcement Statistics

Domestic Investigations keeps track of additional statistics to monitor their drug enforcement efforts.
Domestic Investigations does not set targets for seizures and only provides year end data. Note “high
impact” as discussed in statistics 3 through 6 is defined as the weight limit for a seizure that would
constitute a federal drug identification number from the El Paso Intelligence Center.

Statistic 1: Dollar value of real or other property seizures derived from/and/or used in drug
operations.

              FY 2010       FY 2011        FY 2012
               Actual        Actual         Actual
               $47.2         $53.7          $337.1
               Million       Million        Million

Statistic 2: Dollar value of seized currency and monetary instruments from drug operations.

              FY 2010       FY 2011       FY 2012
               Actual        Actual        Actual
              $115.2         $232.4        $155.7
              Million        Million       Million

Statistic 3: Percentage of total cocaine seizures considered high impact.

              FY 2010       FY 2011       FY 2012
               Actual        Actual        Actual
                60%           54%           49%

Statistic 4: Percentage of heroin seizures considered high impact.

              FY 2010       FY 2011       FY 2012
               Actual        Actual        Actual
                71%           68%           54%

Statistic 5: Percentage of marijuana seizures considered high impact.

              FY 2010       FY 2011       FY 2012
               Actual        Actual        Actual
                57%           48%           43%

Statistic 6: Percentage of methamphetamine seizures considered high impact.

              FY 2010       FY 2011       FY 2012
               Actual        Actual        Actual
                56%           65%           63%
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix A
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Acting Chief Privacy Officer

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Office of National Drug Control Policy

   Associate Director for Planning and Budget

   U.S. Immigration and Customs Enforcement

   Director
   Chief Financial Officer
   Audit Liaison

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate


   �




www.oig.dhs.gov                                                            OIG-13-32
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
